Nos. 19-1257 & 19-1258
In the Supreme Court of the United States
__________________
ARIZONA REPUBLICAN PARTY, ET AL.,
Petitioners,
v.
DEMOCRATIC NATIONAL COMMITTEE, ET AL.,
Respondents.
----------------------MARK BRNOVICH, ATTORNEY GENERAL OF ARIZONA, ET AL.,
Petitioners,
v.
DEMOCRATIC NATIONAL COMMITTEE, ET AL.,
Respondents.
__________________
On Petitions for Writs of Certiorari to the United States
Court of Appeals for the Ninth Circuit

__________________

BRIEF OF AMICI CURIAE GOVERNOR DOUGLAS A.
DUCEY, PRESIDENT OF THE ARIZONA STATE
SENATE KAREN FANN, AND SPEAKER OF THE
ARIZONA HOUSE OF REPRESENTATIVES RUSSELL
BOWERS IN SUPPORT OF PETITIONERS

__________________

ANDREW G. PAPPAS
General Counsel
Arizona House of
Representatives
1700 W. Washington Street
Phoenix, AZ 85007
apappas@azleg.gov
(602) 926-5544

DOMINIC E. DRAYE
Counsel of Record
JONATHAN K. OGATA
GREENBERG TRAURIG LLP
2101 L Street, N.W.
Washington, DC 20037
drayed@gtlaw.com
(202) 331-3168

(Counsel continued on inside cover)

ANNI L. FOSTER
General Counsel
Office of Governor
Douglas A. Ducey
1700 W. Washington Street
Phoenix, Arizona 85007
afoster@az.gov
(602) 542-1455

GREGREY G. JERNIGAN
General Counsel
Arizona State Senate
1700 W. Washington Street
Phoenix, AZ 85007
gjernigan@azleg.gov
(602) 926-5418

Counsel for Amici Curiae

i
TABLE OF CONTENTS
TABLE OF AUTHORITIES . . . . . . . . . . . . . . . . . . . . . . . i
STATEMENT OF INTEREST . . . . . . . . . . . . . . . . . . . . 1
SUMMARY OF ARGUMENT . . . . . . . . . . . . . . . . . . . . . 2
ARGUMENT . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3
I. The Ninth Circuit Has Exacerbated a Circuit Split
by Transforming Section 2 into a One-Way Ratchet
and Shuttering the Laboratories of Democracy . . . . 3
A. Arizona Lawmakers Have Built One of the Most
Accommodating Voting Frameworks in the
United States . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3
B. The Ninth Circuit’s Decision Disables
States from Experimenting with Election
Regulations . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5
C. The Ninth Circuit’s Interpretation of Section 2
Erodes the Statutory Requirements . . . . . . . . . . 8
II. The Ninth Circuit’s Approach to Historical
Discrimination and Lawmakers’ Motives
Would Convict Every Current Legislature in the
Nation . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 15
CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 23

ii
TABLE OF AUTHORITIES
CASES
Abbot v. Perez,
138 S. Ct. 2305 (2018). . . . . . . . . . . . . . . . . . . . . . . 18, 19
Ariz. State Legislature v. Ariz. Indep. Redistricting
Comm’n, 135 S. Ct. 2652 (2015) . . . . . . . . . . . . . . . . 3, 8
Arizona v. Inter Tribal Council of Ariz., Inc.,
570 U.S. 1 (2013). . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7
City of Mobile v. Bolden,
446 U.S. 55 (1980). . . . . . . . . . . . . . . . . . . . . . . . . . . . . 18
Crawford v. Marion Cty. Election Bd.,
553 U.S. 181 (2008). . . . . . . . . . . . . . . . . . . . . . . . passim
Epic Sys. Corp. v. Lewis,
138 S. Ct. 1612 (2018). . . . . . . . . . . . . . . . . . . . . . . . . . . 7
Frank v. Walker,
17 F. Supp. 3d 837 (E.D. Wisc. 2014) . . . . . . . . . . . . 11
Frank v. Walker,
768 F.3d 744 (7th Cir. 2014) . . . . . . . . . 6, 11, 12, 13, 14
Gonzalez v. Arizona,
677 F.3d 383 (9th Cir. 2012) . . . . . . . . . . . . . . . . . 10, 11
Hunt v. Cromartie,
526 U.S. 541 (1999). . . . . . . . . . . . . . . . . . . . . . . . . . . . 16
Lee v. Va. State Bd. of Elections,
843 F.3d 592 (4th Cir. 2016) . . . . . . . . . . . . . . . . . . 9, 11
McDonald v. Bd. of Election Comm’rs of Chicago,
394 U.S. 802 (1969). . . . . . . . . . . . . . . . . . . . . . . . . . . 8, 9

iii
Milliken v. Bradley,
418 U.S. 717 (1974). . . . . . . . . . . . . . . . . . . . . . . . . . . . 13
Munro v. Socialist Workers Party,
479 U.S. 189 (1986). . . . . . . . . . . . . . . . . . . . . . . . . . . . 22
Ohio Democratic Party v. Husted,
834 F.3d 620 (6th Cir. 2016) . . . . . . . . . . . . . . . 7, 11, 14
Pac. Gas & Elec. Co. v. State Energy Res.
Conservation & Dev. Comm’n,
461 U.S. 190 (1983). . . . . . . . . . . . . . . . . . . . . . . . . . . . 20
Prejean v. Foster,
227 F.3d 504 (5th Cir. 2000) . . . . . . . . . . . . . . . . . . . . 16
Pullman-Standard v. Swint,
456 U.S. 273 (1982). . . . . . . . . . . . . . . . . . . . . . . . . . . . 16
Rucho v. Common Cause,
139 S. Ct. 2484 (2019). . . . . . . . . . . . . . . . . . . . . . . . . . 23
Shelby County v. Holder,
570 U.S. 529 (2013). . . . . . . . . . . . . . . . . . . . . . . . . . . . 17
Whitman v. American Trucking Assns., Inc.,
531 U.S. 457 (2001). . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7
CONSTITUTION AND STATUTES
U.S. Const. art. I, § 4, cl. 1 . . . . . . . . . . . . . . . . . . . . . . . . . 3
52 U.S.C. § 10301 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8
52 U.S.C. § 10301(a) . . . . . . . . . . . . . . . . . . . . . . . . . 9, 10, 12
52 U.S.C. § 10301(b). . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13
Ariz. Rev. Stat. § 16-541. . . . . . . . . . . . . . . . . . . . . . . . . . . . 3

iv
Ariz. Rev. Stat. § 16-542 . . . . . . . . . . . . . . . . . . . . . . . . . . . 4
Ariz. Rev. Stat. § 16-544 . . . . . . . . . . . . . . . . . . . . . . . . . . . 4
Ariz. Rev. Stat. § 16-1005(H). . . . . . . . . . . . . . . . . . . . . . . . 4

1
STATEMENT OF INTEREST1
Amici Curiae are Arizona lawmakers whose integrity
the en banc Ninth Circuit impugned and whose authority
that court tried to displace.
Douglas A. Ducey is the Governor of the State of
Arizona, Karen Fann is the President of the Arizona State
Senate, and Russell Bowers is the Speaker of the Arizona
House of Representatives. All three held office in 2016,
when Arizona adopted House Bill 2023, a ban on ballot
harvesting, and all three supported that measure. Speaker
Bowers and President Fann voted for the bill; Governor
Ducey signed it into law. Their mutual objective was to
guarantee the integrity of the ballot while maintaining easy
access to early voting. And they succeeded. HB 2023 is a
commonsense—and commonplace—law that prevents
fraud by limiting who can handle a voter’s early ballot, but
nonetheless allows relatives, caregivers, and others to help
voters in returning their ballots. HB 2023 protects the
right to vote; it does not diminish that right.
None of the Amici were in public office decades earlier,
when Arizona joined the overwhelming majority of States
in adopting precinct-based voting for in-person voters on
election day. But as state officers, Amici have an interest
in defending Arizona’s laws against an activist attack.

1

Pursuant to Supreme Court Rule 37.6, amici curiae state that no
counsel for any party authored this brief in whole or in part and that no
entity or person, aside from amici curiae made any monetary
contribution toward the preparation or submission of this brief.
Pursuant to Supreme Court Rule 37.3, counsel of record for all parties
received timely notice of the intent to file this brief and have consented
to this filing.

2
SUMMARY OF ARGUMENT
The en banc Ninth Circuit broke with three other
circuits and created an impossible standard for state
lawmakers when it invalidated two elections regulations
that impose only “the usual burdens of voting.” Crawford
v. Marion Cty. Election Bd., 553 U.S. 181, 198 (2008)
(Stevens, J., op.). Under the court’s reasoning, statistical or
anecdotal evidence that an election regulation correlates
with any difference in voting behavior among racial groups
is enough to seal the regulation’s fate. That rule calls into
question nearly every election regulation and forestalls
state innovation in making elections more accessible and
more secure.
The Ninth Circuit also found clear error in the district
court’s determination that Arizona’s ballot-collection law
did not have a racially discriminatory purpose. The court’s
rationale holds scores of legislators responsible for others’
moral failings, some of them decades old.
These novel rules appear nowhere in the Fifteenth
Amendment or Section 2 of the Voting Rights Act. And
they would put state lawmakers in a policy
straightjacket. This Court should grant certiorari to
confirm that “the usual burdens of voting” do not deny or
abridge the right to vote.

3
ARGUMENT
I. The Ninth Circuit Has Exacerbated a Circuit Split
by Transforming Section 2 into a One-Way Ratchet
and Shuttering the Laboratories of Democracy.
The Ninth Circuit’s conclusions are legally and factually
wrong, and they mark an irreconcilable split with other
circuits over Section 2 of the Voting Rights Act. Of
particular concern to Amici, the decision below also makes
it nearly impossible for state lawmakers to regulate
elections.
A. Arizona Lawmakers Have Built One of the Most
Accommodating Voting Frameworks in the
United States.
Under the Elections Clause, States prescribe the “time,
place, and manner” for holding elections. U.S. Const. art.
I, § 4, cl. 1. Consistent with its role as one of 50
“laboratories for devising solutions to difficult legal
problems,” Ariz. State Legislature v. Ariz. Indep.
Redistricting Comm’n (AIRC), 135 S. Ct. 2652, 2673 (2015)
(quotation omitted), Arizona has debated and implemented
various practices and procedures for running open and
orderly elections.
The product of this innovation is “a flexible mixture of
early in-person voting, early voting by mail, and traditional,
in-person voting at polling places on Election Day.” Pet.
App. 316a.2 Arizona voters need no excuse to vote early.
Ariz. Rev. Stat. § 16-541. They can request an early ballot

2

This brief references the Petition and Petitioners’ Appendix in No. 191258.

4
on an election-by-election basis or join the State’s
Permanent Early Voter List to receive an early ballot as a
matter of course. Id. §§ 16-542, 16-544. In 2002, Arizona
became the first State to allow citizens to register to vote
online. Pet. App. 316a.
For those who vote early, Arizona provides multiple
easy, straightforward ways to return their ballots. Voters
in every county may mail their ballots postage-free. Pet.
App. 317a. Some counties provide drop-boxes; all allow
voters to return “ballots in person at any polling place, vote
center, or authorized election official’s office without
waiting in line.” Id.
Finally, Arizona allows early voters to enlist the help of
family members, household members, caregivers, election
workers, and postal workers in returning early ballots,
though the State prohibits other third parties from doing
so. See Ariz. Rev. Stat. § 16-1005(H). This prohibition,
found in HB 2023, is one of the two regulations that
Respondents challenge.
The other challenged regulation affects only part of the
small and dwindling share of Arizona voters who choose to
vote in person on Election Day. For decades, “Arizona has
required [those] voters . . . to cast their ballots in their
assigned precinct and has enforced this system by counting
only those ballots cast in the correct precinct.” Pet. App.
318a.

5
B. The Ninth Circuit’s Decision Disables States
from Experimenting with Election Regulations.
The en banc Ninth Circuit’s decision threatens to
foreclose future innovation in elections regulation. It does
so first by reading Section 2’s “results test” to require
States with imperfect histories of racial equality to achieve
racial parity in voting behavior before they can regulate
particular voting practices. No legislature can meet this
standard. Second, the Ninth Circuit imposed a one-way
ratchet that allows States to experiment with relaxing their
election laws but prevents them from correcting course and
tightening their rules.
This structure discourages
innovation and allows one legislature to bind the hands of
all future legislatures.
1. The Ninth Circuit opinion demands a perfection that
no legislature could deliver and no Congress would impose.
The court below invalidated Arizona’s precinct-voting rule
based on evidence that 99% of minority voters and 99.5% of
white voters cast their ballots in the correct
precincts—evidence the court characterized as
“establish[ing] that minority voters in Arizona cast [out-ofprecinct] ballots at twice the rate of white voters.” Pet.
App. 41a. Combined with a “history of discrimination”
starting 64 years before statehood, with the 1848 Treaty of
Guadalupe Hidalgo, the en banc majority concluded that
Arizona’s precinct-voting rule results in a race-based denial
of the right to vote. Pet. App. 49a–50a, 81a.
The court reached the same conclusion about HB 2023.
The district court had noted that “no individual voter
testified that H.B. 2023’s limitations on who may collect an
early ballot would make it significantly more difficult to
vote,” let alone impossible to do so. Pet. App. 386a. The

6
Ninth Circuit filled that evidentiary hole by pointing back
to “Arizona’s long history of race-based discrimination in
voting,” and to anecdotal evidence that more minorities
than white voters have their ballots collected by third
parties. Pet. App. 82a–85a.
The Ninth Circuit’s approach not only clashes with
precedent from other circuits, see Part II infra, but it
would invalidate legislation based on even the barest racial
disparities in voting behavior or preferences, so long as
they can be connected—however tenuously—to historical
discrimination. At a practical level, this approach would
doom nearly all state election regulations.
As the Seventh Circuit has explained, “[n]o state has
exactly equal registration rates, exactly equal turnout
rates, and so on, at every stage of its voting system.”
Frank v. Walker, 768 F.3d 744, 754 (7th Cir. 2014)
(Easterbrook, J.). For the Ninth Circuit, then, nearly any
measure of racial inequality could be deployed to invalidate
an election regulation, no matter how benign. For example,
“[m]otor-voter registration, which makes it simple for
people to register by checking a box when they get drivers’
licenses, would be invalid, because black and Latino citizens
are less likely to own cars and therefore less likely to get
drivers’ licenses.” Ibid.
“[I]t would be implausible to read § 2 as sweeping away
almost all registration and voting rules,” ibid., but that is
where the Ninth Circuit’s approach leads. This result
signals that something is amiss in that court’s reading of
Section 2. And indeed several canons of construction weigh
against the Ninth Circuit’s approach. In the Elections
Clause context, this Court demands textual evidence of
Congress’s preemptive intent: “Because the power the

7
Elections Clause confers is none other than the power to
pre-empt, the reasonable assumption is that the statutory
text accurately communicates the scope of Congress’s preemptive intent.” Arizona v. Inter Tribal Council of Ariz.,
Inc., 570 U.S. 1, 14 (2013). Furthermore, under the major
questions doctrine, if Congress had intended to foreclose
any election regulation that correlates with race, it would
have said so more explicitly. See Epic Sys. Corp. v. Lewis,
138 S. Ct. 1612, 1626–27 (2018) (presuming “that Congress
‘does not alter the fundamental details of a regulatory
scheme in vague terms or ancillary provisions’” (quoting
Whitman v. American Trucking Assns., Inc., 531 U.S. 457
(2001)). The text of Section 2 indicates no intent to preempt
a policy field as wide as the Ninth Circuit has cleared. A
limitless interpretation of that statute cannot be a faithful
one.
2. The Ninth Circuit’s “theory of disenfranchisement,”
particularly as concerns HB 2023, also “creat[es] a ‘one-way
ratchet’ that . . . discourage[s] states from ever increasing
early voting opportunities, lest they be prohibited by
federal courts from later modifying their election
procedures in response to changing circumstances.” Ohio
Democratic Party v. Husted, 834 F.3d 620, 623 (6th Cir.
2016) (upholding the Ohio legislature’s decision to end an
experiment in early voting even though it
disproportionately affected black voters).
Under the Ninth Circuit’s approach, once a State
permits a voting method that minority voters
disproportionately prefer—here, third-party collection of
early ballots—the State becomes powerless to regulate that
practice even if countervailing concerns emerge. But policy
revisions and re-revisions are exactly what States are

8
supposed to do under the Elections Clause. See AIRC, 135
S. Ct. at 2673. And to hamstring States in this way not only
discourages innovation; it forbids States to fix problems as
they arise.
The ability to change laws in response to changing
circumstances and priorities is, of course, central to the
policymaking work of every legislature in the country. As
Chief Justice Warren observed five decades ago, “a
legislature traditionally has been allowed to take reform
one step at a time, addressing itself to the phase of the
problem which seems most acute to the legislative mind.”
McDonald v. Bd. of Election Comm’rs of Chicago, 394 U.S.
802, 809 (1969) (quotation omitted). Amici know from
experience that, with each policy experiment, lawmakers
discover new “phase[s] of the problem.” Some of those
lessons require returning to former policies. The Ninth
Circuit, however, has replaced the process of trial and error
with an allowance for trials but no opportunity to admit
even partial error. The result will be less policy innovation.
C. The Ninth Circuit’s Interpretation of Section 2
Erodes the Statutory Requirements.
The decision below not only creates insuperable hurdles
for state lawmakers, but its reading of Section 2 is also
wrong and conflicts with the decisions of at least three
other circuits.
In applying Section 2, the Ninth Circuit asked the
wrong question and looked to the wrong evidence for its
answer. Rather than examine the “right . . . to vote” and
voters’ “opportunity . . . to participate in the political
process,” 52 U.S.C. § 10301, the Ninth Circuit examined in
isolation two methods of voting—out-of-precinct voting and

9
third-party ballot collection. But the right to vote is not a
right to vote wherever or however one chooses. That was
the Court’s premise in McDonald, which distinguished the
“ability to exercise the fundamental right to vote” from “a
claimed right to receive absentee ballots.” 394 U.S. at 807.
And had the Ninth Circuit followed the Fourth, Sixth, and
Seventh Circuits, it would have upheld the challenged
regulations.
1. Following the text of Section 2, a court must first ask
whether a contested regulation affects the right to vote. As
this Court and others have recognized, exercising the right
to vote is not completely effortless. In the related context
of the Fourteenth Amendment, for example, this Court
held that a State may require voter identification, and that
doing so “does not qualify as a substantial burden on the
right to vote, or even represent a significant increase over
the usual burdens of voting.” Crawford, 553 U.S. at 198.
Other courts have carried that insight the short distance to
Section 2’s protection of “the right . . . to vote.” 52 U.S.C.
§ 10301(a). The Fourth Circuit, for example, applied
Crawford to Section 2, noting that the “‘usual burdens of
voting’” do not amount to a denial or abridgement of the
right to vote. Lee v. Va. State Bd. of Elections, 843 F.3d
592, 600 (4th Cir. 2016) (quoting Crawford, 553 U.S. at 198);
see also Pet. App. 126a (O’Scannlain, J., dissenting) (noting
the en banc majority’s failure to explain “how or why the
burden of voting in one’s assigned precinct is severe or
beyond that of the burdens traditionally associated with
voting”). Borrowing Crawford’s “usual burdens” test in
this context makes sense. After all, what is “usual” cannot
be a denial or abridgement.

10
The Ninth Circuit, however, dodged Respondents’
Fourteenth Amendment claim, Pet. App. 9a, because it was
irreconcilable with Crawford. Then, when applying Section
2, the court ignored Crawford’s essential insight that the
ordinary burdens of voting cannot, by definition, deny or
cut short the right to vote. The Ninth Circuit’s silence on
“usual burdens” has one upside: it leaves in place the
district court’s factual findings that neither contested
regulation represents more than the “usual” and “ordinary
burdens of voting.” Pet. App. 336a (HB 2023), 361a (out-ofprecinct). Thus, all that remains is for this Court to resolve
the circuit split on whether such usual burdens of voting
can constitute a denial or abridgement under Section 2.
The Court should grant certiorari to resolve that legal
division.
2. Assuming that a regulation denies or abridges the
right to vote, the next question under Section 2 is whether
the denial is “on account of race or color.” 52 U.S.C.
§ 10301(a). On this point, the Ninth Circuit professed to
require more than a bare statistical disparity, and “to
assume . . . that more than a de minimis number of minority
voters must be burdened before a Section 2 violation based
on the results test can be found.” Pet. App. 37a, 43a. In
fact the court did no such thing, instead creating a hair
trigger for racial discrepancies that forecloses benign
explanations like geography, economic class, or education.
In so doing, the Ninth Circuit cemented its split with
the Fourth, Sixth, and Seventh Circuits. The en banc
majority limited its earlier decision in Gonzalez v. Arizona,
677 F.3d 383 (9th Cir. 2012) (en banc), on the grounds that
it “does not tell us that the predicate disparity, and its
effect, are the same in vote denial and vote dilution cases.”

11
Pet. App. 107a. What that means is far from clear, but
other circuits have not shared the same concern. The Sixth
Circuit cited Gonzalez in holding that a vote-denial claim
requires “proof of a disparate impact—amounting to denial
or abridgement of protected class members’ right to
vote—that results from the challenged standard or
practice.” Husted, 834 F.3d at 623. The same is true in the
Fourth and Seventh Circuits, which rejected bare
statistical disparities attributable to other factors. Lee, 843
F.3d at 600; Frank, 768 F.3d at 753.
The Ninth Circuit, however, assumed that (tiny)
disparities in electoral behavior must be attributable to and
caused by state law. The district court found the opposite:
that Arizona’s laws did not cause the “observed
disparities.” Pet. App. 391a. In the Seventh Circuit, this
finding alone would have been enough to affirm the verdict
in favor of the State. As that court explained in Frank,
showing “a disparate outcome [does] not show a denial of
anything by Wisconsin, as § 2 requires.” 768 F.3d at 753
(emphasis added). Instead, the court credited the district
court’s factual finding that “‘the reason Blacks and Latinos
are disproportionately likely to lack an ID is because they
are disproportionately likely to live in poverty.’” Ibid.
(quoting Frank v. Walker, 17 F. Supp. 3d 837, 877 (E.D.
Wisc. 2014)).
Here, concerning HB 2023, the Ninth Circuit brushed
aside a number of alternative explanations for disparate
outcomes other than “race or color.” One of Respondents’
witnesses identified several non-racial categories of voters
who might find it challenging to return early mail ballots,
including voters who “lack easy access to outgoing mail
services; the elderly, homebound, and disabled voters;

12
socioeconomically disadvantaged voters who lack reliable
transportation; voters who have trouble finding time to
return mail because they work multiple jobs or lack
childcare services; and voters who are unfamiliar with the
voting process.” Pet. App. 22a (quoting Pet. App. 335a).
But there was no evidence that the State caused the
exogenous conditions that might make ballot collection
appealing to some voters. Indeed, pointing to this same
testimony, the district court concluded that “[t]he evidence
available largely shows that voters who have used ballot
collection services in the past have done so out of
convenience or personal preference, or because of
circumstances that Arizona law adequately accommodates
in other ways.” Pet. App. 335a. Under the Seventh
Circuit’s approach, there could be no showing that the State
denied anything, and thus no Section 2 violation. See
Frank, 768 F.3d at 753.
The same error infects Respondents’ effort to show that
the precinct-voting rule creates an unequal opportunity to
vote “on account of race.” The district court found that
Respondents “have not shown that Arizona’s policy to not
count [out-of-precinct] ballots causes minorities to show up
to vote at the wrong precinct.” Pet. App. 391a. Again,
absent a showing of causation, this case would have
concluded differently in the Seventh Circuit.
In sum, small differences may exist in the rates at which
different groups use ballot collectors or vote outside their
precincts. But those differences arise “on account of” traits
other than “race or color,” and independent of any state
action. 52 U.S.C. § 10301(a). In the Fourth, Sixth, and
Seventh Circuits, this case would be an easy one. In the
Ninth Circuit, however, bare statistical disparities doom

13
even neutral regulations. The implication of this rule is
that state legislators and governors must eliminate racially
correlated differences that they did not create—a nearly
impossible task. Cf. Frank, 768 F.3d at 753 (“[U]nits of
government are responsible for their own discrimination
but not for rectifying the effects of other persons’
discrimination.” (citing Milliken v. Bradley, 418 U.S. 717
(1974))). This call for social and economic transfiguration
goes well beyond the language of Section 2. This Court
should grant certiorari to resolve the split and relieve the
States in the Ninth Circuit from an impossible prerequisite
for passing election laws.
3. Finally, for courts asking the correct question under
Section 2, the relevant evidence is not whether minority
voters are more likely to engage in a certain practice, but
whether curtailing that practice means that the “political
processes . . . are not equally open” to them. 52 U.S.C.
§ 10301(b). The Ninth Circuit’s failure to undertake that
inquiry is most glaring in the context of the precinct-voting
rule, where the court seized on a single data point and
misused statistics to exaggerate the effect of out-ofprecinct voting, in direct conflict with the Seventh Circuit.
The text of Section 2 states that a voting qualification
abridges or denies the right to vote on account of race or
color if it results in “political processes . . . not equally open
to participation by a [protected] class of citizens.” 52
U.S.C. § 10301(b). This determination must consider “the
totality of circumstances.” Ibid. That standard makes
sense because legislators and governors craft their election
reform measures in the context of the complete regulatory
landscape and evolving threats to election integrity.

14
The Sixth Circuit has approached this holistic inquiry
by examining overall voter participation rates and insisting
on statistical significance before invalidating a state law.
Comparing different registration rates for African
American and white voters, for example, the Sixth Circuit
noted that “both groups’ registration numbers are
statistically indistinguishable.” Husted, 834 F.3d at 639.
The Seventh Circuit likewise considered overall
registration and turnout rates as part of the totality of the
circumstances. Frank, 768 F.3d at 752.
The Ninth Circuit ignored the big picture and instead
seized on a single piece of evidence that it could reinterpret
in a nonsensical way. As noted, the record establishes that
99.5% of white voters and 99% of minority voters voted inprecinct. Pet. App. 388a. But rather than acknowledge the
obvious—that this difference is statistically
insignificant—the Ninth Circuit divided the percentages to
produce a new statistic to suit its desired outcome. Pet.
App. 41a. Thus, the en banc panel could assert that out-ofprecinct voting occurs at a “ratio of two to one.” Ibid. Of
course, the same “ratio of two to one” would apply if
99.999998% of minorities voted in the correct precinct while
99.999999% of white voters did the same. The Seventh
Circuit addressed exactly this “misuse of data,” concluding
that “[t]hat’s why we don’t divide percentages.” Frank, 768
F.3d at 752 n.3.
The Ninth Circuit’s holding includes a second, even
greater detachment from the “totality of circumstances.”
The court chided the district court for considering the
consequences of out-of-precinct voting in the context of
voting overall—rather than among in-person voting alone.
Pet. App. 42a–43a. In the larger context, the importance of

15
out-of-precinct becomes vanishingly small. In the 2016
general election, just 0.15% of ballots were cast in the
wrong precinct. Pet. App. 354a. Also relevant to the
district court’s approach was the fact that the number of
out-of-precinct ballots has been falling. Pet. App.
354a–356a. This fidelity to the statute did not escape the
Ninth Circuit, which decried the “misleading numbers and
percentages cited by the district court.” Pet. App. 43a.
* * *
State lawmakers enact election regulations as part of
their State’s overall statutory scheme. Congress designed
Section 2 with two paragraphs of conditions that plaintiffs
must satisfy before invalidating state laws. To give effect
to those conditions, this Court should grant certiorari and
apply the “usual burdens” standard from Crawford (for
which a factual finding already exists), insist that courts
consider factors that might explain statistical disparities
not “on account of race or color,” and affirm the meaning of
“totality of circumstances” against the Ninth Circuit’s
bizarre manipulation of statistics.
II. The Ninth Circuit’s Approach to Historical
Discrimination and Lawmakers’ Motives Would
Convict Every Current Legislature in the Nation.
Amici know from experience that divining legislative
intent is nearly impossible. What drives one legislator is
irrelevant to another and a drawback in the eyes of a third.
Yet all three might eventually support the same bill.
Compounding this divergence in motives are the
incomplete records of legislative proceedings. Floor and
committee transcripts reveal areas of contention or
uncertainty; they do not document each legislator’s various
motives or their relative importance.

16
If “legislative intent” is discoverable at all, the record in
this case falls far short of establishing a discriminatory
intent behind HB 2023. The district court correctly
rejected that contention, and the en banc Ninth Circuit had
no basis for finding clear error. For the decent men and
women who supported this legislation, erasing the Ninth
Circuit’s slander is of utmost importance.
1. Legislative intent entered this case through two
theories: the “intent test” for Section 2, and the Fifteenth
Amendment. Pet. App. 8a. Treating these arguments
together, the district court rejected Respondents’ theory of
invidious legislative intent. Pet. App. 412a. It concluded
that the legislature acted on “a sincere belief that mail-in
ballots lacked adequate prophylactic safeguards as
compared to in-person voting.” Ibid. While some
legislators “also harbored partisan motives . . . in the end,
the legislature acted in spite of opponents’ concerns that
the law would prohibit an effective [get-out-the-vote]
strategy in low-efficacy minority communities, not because
it intended to suppress those votes.” Ibid. As a result, the
district court found “that H.B. 2023 was not enacted with a
racially discriminatory purpose.” Pet. App. 404a.
“Legislative motivation or intent is a paradigmatic fact
question.” Prejean v. Foster, 227 F.3d 504, 509 (5th Cir.
2000) (citing Hunt v. Cromartie, 526 U.S. 541, 549 (1999));
Pullman-Standard v. Swint, 456 U.S. 273, 287–288 (1982)
(“intent to discriminate on account of race . . . is a pure
question of fact”).
2. Here, the district court’s finding that HB 2023 was
enacted without discriminatory intent followed a 10-day
bench trial. The court heard testimony of “current and
former lawmakers, elections officials, and law enforcement

17
officials,” including both supporters and opponents of the
law. Pet. App. 315a. Among those who testified was
Representative Charlene Fernandez, the current
Democratic Minority Leader of the Arizona House of
Representatives. Rep. Fernandez opposed HB 2023 in
2016, but she testified at trial that she had no “reason to
believe that HB 2023 was meant to suppress Hispanic
votes.” Pet. App. 407a. The district court agreed. Pet.
App. 404a.
3. A bare majority of the en banc Ninth Circuit
upended that factual finding based on “Arizona’s long
history of race-based voting discrimination,” prior
legislatures’ efforts to limit third-party ballot collection,
and a novel “cat’s paw” theory under which the court
imputed one senator’s supposedly race-based motives to all
of his colleagues. Pet. App. 99a, 101a.3 All of these attacks
share a common theme of attributing to Amici and their
many colleagues views and intentions that they do not hold.
a. As noted, the “long history” chronicled by the
Ninth Circuit stretches back 172 years—64 years before
Arizona entered the Union. Even accepting as true
Respondents’ expert testimony on that point, the Ninth
Circuit erred in faulting contemporary legislators based on
distant history. See Shelby County v. Holder, 570 U.S. 529,
553 (2013) (rejecting the coverage formula in Section 4 of
the Voting Rights Act because it rested on “decades-old
data relevant to decades-old problems”). Every State has
historical failures in racial equality. But neither the
Fifteenth Amendment nor Section 2 disables current

3

Judge Watford did not join the “intent test” portion of the en banc
panel’s opinion. Pet. App. 114a.

18
legislatures because their predecessors acted badly. Just
as one legislature’s laws cannot bind another, so future
lawmakers are not bound to the moral defects of their
forbearers. As this Court recently reaffirmed, “[p]ast
discrimination cannot, in the manner of original sin,
condemn governmental action that is not itself unlawful.”
Abbot v. Perez, 138 S. Ct. 2305, 2324 (2018) (quoting City of
Mobile v. Bolden, 446 U.S. 55, 74 (1980)).
b. The Ninth Circuit’s reliance on prior legislatures’
efforts to limit third-party ballot collection was misplaced
for similar reasons. The district court correctly discounted
those earlier efforts—Senate Bill 1412 (2011) and HB 2305
(2013)—because “they involve[d] different bills passed
during different legislative sessions by a substantially
different composition of legislators.” Pet. App. 409a. The
en banc majority, by contrast, scoured those earlier “efforts
to outlaw third-party ballot collection” for some evidence of
sinister intent. Pet. App. 82a.
Regarding SB 1412, for example, the court misleadingly
quoted Arizona’s former elections director, Amy Bjelland
Chan, as “admit[ting] that the provision was ‘targeted at
voting practices in predominantly Hispanic areas.’” Pet.
App. 27a–28a. “In context,” as the district court earlier
explained, the report “describes the ‘practice’ targeted by
S.B. 1412 not as ballot collection, generally, but as voter
fraud perpetrated through ballot collection, which Bjelland
believed was more prevalent along the border because of
perceived ‘corruption in the government and the voting
process in Mexico,’ and the fact that ‘people who live close
to the border are more impacted by that.’” Dist. Ct. Dkt.
204 at 13.

19
As for HB 2305, the Ninth Circuit darkly noted that the
bill “was passed along nearly straight party lines in the
waning hours of the legislative session.” Pet. App. 28a. But
that describes many bills passed at the end of every
legislative session. The court also noted that the
Legislature subsequently repealed the bill rather than face
a citizen referendum. Pet. App. 29a. But that says nothing
about the intent of the legislators who voted for the bill
itself.
Even the en banc majority could not go so far as to
conclude that either SB 1412 or HB 2305 was enacted with
discriminatory intent. But even if it had, “this is [not] a
case in which a law originally acted with discriminatory
intent [was] later reenacted by a different legislature,” so
“what matters . . . is the intent of the” legislature that
enacted HB 2023. Abbott, 138 S. Ct. at 2325.
b. As for HB 2023, the Ninth Circuit adopted a “cat’s
paw” theory of legislative intent that is unsupported in law
and unconnected to the realities of policymaking. The
en banc court purported to “accept the district court’s
conclusion that some members of the legislature who voted
for H.B. 2023 had a sincere, though mistaken, non-racebased belief that there had been fraud in third-party ballot
collection, and that the problem needed to be addressed.”
Pet. App. 99a; compare Pet. App. 405a. But because that
“sincere belief” was the product of a single legislator’s
“false allegations” and a “racially-tinged” video, the Ninth
Circuit tortuously reasoned, “a discriminatory purpose”
could be imputed to the 50 other legislators who “did not
themselves have” a malign purpose, but were nonetheless
duped into voting for the bill. Pet. App. 100a.

20
No other court has adopted this demeaning “cat’s paw”
theory of legislative intent, and for good reason. It turns
the presumption of legislative good faith on its head and is
irreconcilable with this Court’s commonsense observation
that “[w]hat motivates one legislator to vote for a statute is
not necessarily what motivates scores of others to enact it.”
Pac. Gas & Elec. Co. v. State Energy Res. Conservation &
Dev. Comm’n, 461 U.S. 190, 217 (1983).
Indeed, the Ninth Circuit’s “cat’s paw” hypothesis bears
no resemblance to the realities of policymaking. The
Arizona Legislature consists of two chambers with 90
members—60 representatives and 30 senators. Typically,
after a member introduces legislation, one or more
committees hear the bill, including public testimony, before
the full chamber votes on it. If a majority of the first
chamber approves the bill, then the process repeats itself
in the second chamber. The bill may be amended several
times along the way. And if it clears both chambers, then
it must earn the governor’s signature before it becomes
law. The process is cumbersome by design. And the notion
that a single legislator could control it is farcical.4
Even if this level of manipulation were possible,
adopting the Ninth Circuit’s approach would cast suspicion
on nearly all election-related policymaking. If a single
legislator’s undisclosed racist motives can be attributed to
all his colleagues, then any elections bill he advocates or
votes for may violate Section 2’s intent test or the
Fifteenth Amendment. No legislature can be put to the

4

Ironically, the legislator whom the Ninth Circuit promoted to
Svengali-like status was expelled from the Arizona House of
Representatives in 2018 by a bipartisan supermajority of his colleagues.

21
task of smoking out every member’s secret intentions
before it can regulate elections.
4. The Ninth Circuit’s conclusion regarding legislative
intent rests on an additional error of fact and law. That
court insisted repeatedly that “[t]here is no evidence of any
fraud in the long history of third-party ballot collection in
Arizona.” Pet. App. 25a; see also Pet. App. 111a (“there is
a long history of third-party ballot collection with no
evidence, ever, of any fraud”).
That is false. Jim Drake, a former Assistant Secretary
of State, testified at trial about his investigation of an
individual who collected other people’s ballots, opened
them, and then disqualified them by “overvot[ing] them if
things weren’t going the right way.” Dist. Ct. Dkt. 400 at
213. While it was considering HB 2023, the House
Elections Committee heard testimony from numerous
witnesses, including “Michael Johnson, an African
American who had served on the Phoenix City Council,
strongly favored H.B. 2023[,] and expressed concern about
stories of ballot collectors misrepresenting themselves as
election workers.” Pet. App. 407a; see also Pet. App. 222a
(citing Sen. Steve Smith’s testimony “that ballot fraud is
‘certainly happening.’”).
The legislature also considered the Carter-Baker
Report, which instructed that States “should reduce the
risks of fraud and abuse in absentee voting by prohibiting
‘third-party’ organizations, candidates, and political party
activists from handling absentee ballots.” Pet. App. 351a.
As the Petition points out, other jurisdictions wrestled with
the dangers of ballot harvesting in the years preceding HB
2023’s enactment. Pet. 7–8. And recent history provides an

22
additional example in North Carolina’s 2018 election. See
Pet. App. 166a.
Moreover, as a matter of law, the Ninth Circuit erred in
concluding that “protect[ion] against potential voter
fraud . . . is not necessary, or even appropriate.” Pet. App.
111a. That conclusion directly contravenes this Court’s
decision in Crawford, which reiterated that States can
enact legislation to prevent election fraud even before it
occurs. 553 U.S. at 196 (“While the most effective method
of preventing election fraud may well be debatable, the
propriety of doing so is perfectly clear.”). Unlike here, the
Indiana legislature in Crawford had no evidence of the
particular misconduct that it legislated to prevent. Id. at
194. The same was true when Washington’s lawmakers, in
order to avoid voter confusion, required minor-party
candidates to demonstrate support to qualify for the ballot.
Munro v. Socialist Workers Party, 479 U.S. 189, 195
(1986). Here, in contrast, Arizona lawmakers had evidence
of the fraud they sought to prevent. But even if they had
not, their foresight would not have violated Section 2 or the
Fifteenth Amendment.
5. The en banc majority found further proof of the
legislature’s supposedly illicit motive in the district court’s
finding “that the legislature ‘was aware’ of the impact of
H.B. 2023 on what [the district] court called ‘low-efficacy
minority communities.’” Pet. App. 101a. But the
Ninth Circuit ignored the district court’s finding that “the
legislature enacted H.B. 2023 in spite of its impact on
minority [get-out-the-vote] efforts, not because of that
impact.” Pet. App. 410a (emphasis added). The only other
motive credited by the district court was that “some
individual legislators and proponents were motivated in

23
part by partisan interests.” Ibid. But the court found that
“partisan motives did not permeate the entire legislative
process.” Ibid. “Instead, many proponents acted to
advance facially important interests in bringing early mail
ballot security in line with in-person voting security[.]”
Ibid.
Again, Crawford is instructive. The voter-identification
law there was uniformly supported by Republican
legislators and opposed by Democratic legislators, and so
“[i]t is fair to infer that partisan considerations may have
played a significant role.” Crawford, 553 U.S. at 203. But
where, as here, “a nondiscriminatory law is supported by
valid neutral justifications, those justifications should not
be disregarded simply because partisan interests may have
provided one motivation for the votes of individual
legislators.” Id. at 204. In any event, partisan interests are
not themselves illicit, whether in regulating elections or
redistricting, both of which are constitutionally committed
to the States. See Rucho v. Common Cause, 139 S. Ct.
2484, 2497 (2019) (“To hold that legislators cannot take
partisan interests into account when drawing district lines
would essentially countermand the Framers’ decision to
entrust districting to political entities.”).
CONCLUSION
The en banc Ninth Circuit began its otherwise flawed
opinion by stating that “[t]he right to vote is the foundation
of our democracy.” Pet. App. 1. Precisely because the
right to vote is so important, States must be able to ensure
that elections are orderly and secure, and that fraud does
not diminish legitimate votes. The decision below threatens
States’ ability to discharge their duty based on an
interpretation of Section 2 and the Fifteenth Amendment

24
that is faithful to neither. The Court should grant the
Petition.
Respectfully submitted.
ANDREW G. PAPPAS
General Counsel
Arizona House of
Representatives
1700 W. Washington Street
Phoenix, AZ 85007
apappas@azleg.gov
(602) 926-5544

DOMINIC E. DRAYE
Counsel of Record
JONATHAN K. OGATA
GREENBERG TRAURIG, LLP
2101 L Street N.W.
Washington, DC 20037
drayed@gtlaw.com
(202) 331-3168

ANNI L. FOSTER
General Counsel
Office of Governor
Douglas A. Ducey
1700 W. Washington Street
Phoenix, Arizona 85007
afoster@az.gov
(602) 542-1455

GREGREY G. JERNIGAN
General Counsel
Arizona State Senate
1700 W. Washington Street
Phoenix, AZ 85007
gjernigan@azleg.gov
(602) 926-5418

Counsel for Amici Curiae
JUNE 1, 2020

